HHS/OIG - Audit,"Review of Medicaid Payments the State of Georgia Made on Behalf of Individuals After Death,"(A-04-01-00004)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Payments the State of Georgia Made on Behalf of Individuals After Death," (A-04-01-00004)
February 5, 2002
Complete
Text of Report is available in PDF format (302 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Georgia Department of Community Health (DCH) had computerized edits in place to
prevent payments to providers who make claims for services to Medicaid recipients after the recipients have died.  However,
the edits were not 100 percent effective because DCH could not always obtain a recipients date of death timely.  For
the period March 15, 1998 through March 31, 2000, DCH identified an estimated $534,451 ($284,787, Federal share) of payments
for services claimed for recipients after their date of death.  We recommended that DCH continue to work with its
new Medicaid Management Information Systems vendor to establish an edit that automatically voids claims for periods after
a recipients date of death.  DCH officials agreed with our recommendation.